OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BOLIVIA’S
EFFECTIVENESS IN
COMPLYING WITH TIAHRT
REQUIREMENTS
AUDIT REPORT NO.1-511-07-004-P
DECEMBER 26, 2006




SAN SALVADOR, EL SALVADOR
                        Office of Inspector General




       December 26, 2006


       MEMORANDUM

       TO:                USAID/Bolivia Director, Michael Yates
                          USAID/Bolivia Contracting Officer, Ralph Koehring

       FROM:              Acting Regional Inspector General/San Salvador, Darren Roman /s/

       SUBJECT:           Audit of USAID/Bolivia’s Effectiveness in Complying with Tiahrt
                          Requirements (Report No. 1-511-07-004-P)


       This memorandum transmits our final report on the subject audit. We have carefully
       considered your comments on the draft report in finalizing the audit report and have
       included your response in Appendix II of the report.

       The report contains three recommendations intended to improve compliance with Tiahrt
       requirements. Based on your comments and documentation provided, final action has
       been taken on all three recommendations.

       Again, I want to express my appreciation for the cooperation and courtesy extended to
       my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2501-2999 & 2524-2999 –
Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

Has USAID/Bolivia effectively implemented controls and procedures to ensure that
USAID/Bolivia and its implementing partners are complying with the
Tiahrt Amendment requirements? .................................................................................... 5

     Some Awards Need Amendments to Include the Current Voluntary Population
     Activities Provision ...................................................................................................... 8

     Monitoring of Tiahrt Compliance Needs Improvement .............................................. 10

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 17
SUMMARY OF RESULTS
The Regional Inspector General/San Salvador conducted this audit to determine if
USAID/Bolivia effectively implemented controls and procedures to ensure that
USAID/Bolivia and its implementing partners are complying with Tiahrt requirements.
The Tiahrt Amendment’s provisions that are relevant to USAID/Bolivia and its
implementing partners are as follows:

(1) Service providers or referral agents in the project shall not implement or be subject to
quotas, or other numerical targets, of total number of births, number of family planning
acceptors, or acceptors of a particular method of family planning (this provision shall not
be construed to include the use of quantitative estimates or indicators for budgeting and
planning purposes).

(2) The project shall not include payment of incentives, bribes, gratuities, or financial
reward to an individual in exchange for becoming a family planning acceptor, or program
personnel for achieving a numerical target or quota of total number of births, number of
family planning acceptors, or acceptors of a particular method of family planning.

(3) The project shall not deny any right or benefit, including the right of access to
participate in any program of general welfare or the right of access to health care, as a
consequence of any individual's decision not to accept family planning services.

(4) The project shall provide family planning acceptors comprehensible information on
the health benefits and risks of the method chosen, including those conditions that might
render the use of the method inadvisable and those adverse side effects known to be
consequent to the use of the method. (See page 3.)

USAID/Bolivia has implemented controls and procedures to ensure that the Mission and
its partners complied with the requirements of the Tiahrt Amendment. For the items
tested, we found no instances of noncompliance. Further, the controls and procedures
we reviewed (except for areas of improvement indicated in our report) were designed
and implemented to provide USAID/Bolivia with reasonable assurance that its
implementing partners are complying with Tiahrt requirements. The Mission has a strong
compliance environment to prevent violations of the Tiahrt Amendment. USAID/Bolivia
communicated the Tiahrt requirements to its family planning partners. The Mission’s
partners had received training and had certified that they comply with the Tiahrt
requirements. USAID/Bolivia implemented procedures to investigate, remedy and report
violations. Moreover, all service providers were knowledgeable about the risks and
benefits of the various family planning methods and placed emphasis on freedom of
choice. All family planning clients interviewed indicated they had received information on
the risks and benefits of the chosen family planning method. Finally, all the sterilization
clients had signed an informed consent form. (See page 5.)

The auditors identified opportunities to ensure that contracts and the strategic objective
agreement with the Government of Bolivia included Tiahrt requirements (see page 8)
and to strengthen the Mission’s monitoring and reporting procedures related to the Tiahrt
requirements (see page 10).




                                                                                          1
The audit report contains three recommendations to better ensure compliance with Tiahrt
requirements. (See pages 9 and 11.)

USAID/Bolivia agreed with the conclusions and recommendations in our draft report and
final action has been taken on all three recommendations. Our evaluation of management
comments is provided after each finding and recommendation in the report.
USAID/Bolivia’s comments in their entirety are included in Appendix II.




                                                                                     2
BACKGROUND
The principles of voluntarism and informed choice are at the center of USAID’s family
planning assistance program. These principles were reaffirmed in an amendment to the
FY 1999 Appropriation Act. The Tiahrt Amendment (named after its author,
Representative Todd Tiahrt of Kansas) legislated specific requirements for international
family planning service delivery projects supported by USAID.

The specific requirements of the Tiahrt Amendment apply to projects that receive USAID
funds (money, technical assistance, or commodities) in support of family planning
service delivery projects. The Tiahrt Amendment requires, inter alia, that in family
planning projects:

1. Service providers or referral agents shall not implement or be subject to quotas or
   other numerical targets related to the number of births, the number of family planning
   acceptors, or the number of acceptors of a particular family planning method.
   (Quantitative estimates or indicators used for budgeting or planning purposes are
   permissible.)

2. No incentives shall be offered to individuals in exchange for becoming acceptors or
   to program personnel for achieving targets or quotas that consider the number of
   births, the number of acceptors of family planning services, or the number of
   acceptors of a particular family planning method.

3. Rights or benefits may not be withheld from persons who decide not to use family
   planning services.

4. Clients must be given comprehensible information on the health benefits and risks of
   a chosen family planning method, including the conditions that might make a chosen
   method inadvisable, and the known side effects.

The USAID/Bolivia-supported reproductive health program was implemented through
eight partners: Programa de Coordinación en Salud Integral (PROCOSI), Protección a la
Salud (PROSALUD), Centro de Investigación y de Educación Social (CIES),
PROSALUD Socios para el Desarrollo (SOCIOS), the Manoff Group, John Snow
International (JSI) and its Deliver Project, Engender Health (a USAID/Washington global
field support); as well as Proyecto de Salud Integral (PROSIN II) project implemented
by the Ministry of Health through a Strategic Objective Agreement. However, only two
partners PROSALUD and CIES, provided direct family planning services. The other
partners provided technical assistance to the Ministry of Health and Sports (MOH) and to
nongovernmental organizations to improve access to quality family planning services
and provided information/education related to family planning.

The USAID/Bolivia reproductive health and family planning strategy follows a three-
pronged approach:

   1. Promote behavior change and community empowerment.




                                                                                       3
    2. Expand the delivery of quality, high-impact health services through health
       networks.

    3. Strengthen institutional capacity with respect to sustainable health care
       management.

This audit was performed in conjunction with another audit to determine whether
USAID/Bolivia’s family planning activities achieved their planned results, which will be
the subject of a separate report.

During the period covered by our audit, October 1, 2005 through September 30, 2006,
USAID/Bolivia obligated $15.4 million for its family planning implementing partners
including $6.5 million for population-related activities (including funds expended under
Global Field Support). The amount expended in Bolivia totaled $11.3 million. In addition,
USAID donated $430,980 in contraceptives.

AUDIT OBJECTIVE
In response to the discovery of non-compliance with the Tiahrt Amendment in
Guatemala and in order to be responsive to Congressional interest in the matter, the
Office of Inspector General decided to carry out a worldwide audit to assess USAID’s
compliance with the family planning-related requirements of the Tiahrt Amendment. To
support this effort, the Regional Inspector General/San Salvador performed this audit to
answer the following question:

•   Has USAID/Bolivia effectively implemented controls and procedures to ensure that
    USAID/Bolivia and its implementing partners are complying with the Tiahrt
    Amendment requirements?

In order to respond to the audit objective, the auditors answered the following questions:

1. Have USAID/Bolivia or its partners violated the Amendment?

2. Has USAID/Bolivia communicated the Tiahrt Amendment’s requirements to its family
   planning partners?

3. Has USAID/Bolivia, in response to the issues that arose in Guatemala, implemented
   controls and procedures that improve compliance? One of the controls we examined
   was the use of an informed consent form required by USAID’s Policy Determination
   3.

4. Has USAID/Bolivia implemented procedures to investigate, remedy and report
   violations?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                         4
AUDIT FINDINGS
Has USAID/Bolivia effectively implemented controls and
procedures to ensure that USAID/Bolivia and its implementing
partners are complying with the Tiahrt Amendment
requirements?
USAID/Bolivia effectively implemented controls and procedures to ensure that the
Mission and its implementing partners are complying with the Tiahrt Amendment. The
Mission had a strong compliance environment in place due to the emphasis placed on
compliance with the Tiahrt Amendment (and other statutory requirements).
USAID/Bolivia annually provided training to its partners and their staff on the
requirements of the Tiahrt Amendment. In addition, USAID/Bolivia required the staff of
its partners to certify in writing that their activities complied with the requirements of the
Tiahrt Amendment. However, two contracts and the strategic objective agreement with
the Government of Bolivia omitted Tiahrt requirements (see page 8) and there are
additional steps that could be taken to strengthen the Mission’s monitoring and reporting
procedures with regard to the Tiahrt Amendment (see page 10).

For the items tested, we found no instances of noncompliance. Further, the controls and
procedures we reviewed (except for areas of improvement indicated in our report) were
designed and implemented to provide USAID/Bolivia with reasonable assurance that its
implementing partners are complying with Tiahrt requirements. Based on our review of
relevant documents, visits to all USAID partners, visits to 36 health facilities, interviews
with 56 medical staff providing family planning services, and interviews with 106 current
family planning clients, including 25 sterilization patients, we concluded that
USAID/Bolivia and its partners did not implement, nor were subject to, quotas, nor did
they offer any incentives to individual or program personnel for achieving targets or
quotas. In addition, no rights or benefits were denied to clients to induce them to accept
family planning methods, and comprehensible information on the benefits and risks of
the chosen family planning method was provided. All CIES and PROSALUD clients
interviewed commended favorably the high quality of services received and the
emphasis placed on freedom of choice.

Our interviews with sterilization clients found that the service providers had placed a
strong emphasis on voluntarism including a thorough discussion on informed consent
and that a comprehensible explanation of the risks and benefits of sterilization had been
provided to the clients. None of the sterilization clients interviewed had received any
gifts or rewards in return for undergoing sterilization, and all of them had signed an
informed consent form prior to the procedure.

Our visits to 36 sites and interviews with 56 medical staff providing family planning
services indicated that the partners’ service providers were knowledgeable about family
planning and were experienced in providing comprehensive and readily understood
information to potential family planning acceptors. Their knowledge of the various family
planning methods was accurate, consistent and included knowledge of the health
benefits, risks, and side effects of each family planning method.




                                                                                            5
                                                             Photograph of a counselor at the
                                                             Sucre Gineco-Obstetrico Hospital in
                                                             Bolivia explaining different family
                                                             planning methods to a client using
                                                             informational materials. The photo
                                                             was taken by an OIG auditor on
                                                             September 25, 2006.

1. Have USAID/Bolivia or its partners violated the Tiahrt
Amendment?
Based on our review of Cognizant Technical Officer reports and partner-produced
documents, as well as interviews with USAID partners, sub-partners, service providers
and family planning clients, USAID/Bolivia and its partners complied with the
requirements of the Tiahrt Amendment.

In this regard, it should be noted that the Government of Bolivia, through the Ministry of
Health and Sports (MOH) and its contraceptive norms and regulations, has established
an environment in which violations of the requirements of the Tiahrt Amendment are
unlikely to occur. (USAID/Bolivia assisted the MOH in developing these norms, and in
designing the sterilization consent form so that the MOH complies with USAID
regulations). The norms of the MOH do not allow any financial incentives or targets to be
a part of family planning projects and require that patients receive counseling on all
family planning methods available to them. The norms of the MOH also require that
clients interested in undergoing sterilization receive information on the risks and benefits
of the procedure, understand the irreversible consequences of the surgery, and sign a
consent form at least 24 hours prior to the surgery. We reviewed the consent forms of
the 25 sterilization patients interviewed as well as a sample of 228 consent forms of prior
sterilizations performed; all of them appeared to have been completed and signed by
patients. During our visits to health facilities we also found extensive educational
materials, including posters, which presented family planning as a right and a personal
decision.




                                                                                             6
                                                A poster displayed in the waiting room of the
                                                Hospital Gineco Obstetrico de Sucre in the region of
                                                Chuquisaca, Bolivia, communicating that family
                                                planning is a right and a personal decision. It reads,
                                                “Your body, your sexuality, your fertility, your health,
                                                you choose. (It’s) your right, your decision, your
                                                responsibility”. The photo was taken by an OIG
                                                auditor on September 25, 2006. This poster was
                                                present in almost all MOH facilities.

For example, we interviewed one sterilization patient prior to the procedure being
performed who later the same morning changed her mind and left. She had decided
after discussing with her family members not to undergo the surgery. We also
interviewed a woman, age 46 with 10 children, (3 delivered through Cesarian Sections),
who had just been sterilized. She had asked for the procedure earlier. However, she
had not been able to be sterilized earlier because she had not signed the consent form.
Also, the sterilization register of one hospital we visited indicated that several women
who had received counseling and signed the consent form during their pregnancy, had
changed their mind at the time of delivery and decided not to have the surgery and to
use other family planning methods instead.

2. Has USAID/Bolivia communicated the Tiahrt Amendment’s
requirements to its family planning partners?
Our review of Mission communications with partners, our interviews with the partners’
headquarters-based personnel and with the family planning service providers indicated
that USAID/Bolivia had communicated the Tiahrt requirements to its family planning
partners. However, we noted omissions of the Tiahrt requirements in three of seven
award documents. 1 We found that all partners were well aware of the Tiahrt
Amendment and other relevant USAID regulations. USAID/Bolivia has provided training
on the Tiahrt Amendment to all of its partners and its staff for many years and has
created a strong compliance environment within the Mission and among its partners.



1
    Even though the Mission was working with eight partners, the Mission issued only seven
    awards because Engender Health worked through a USAID/Washington global field initiative.




                                                                                                      7
In 2005, three mission staff participated in a USAID workshop where a training session
was given on the Tiahrt Amendment. In addition, the Mission had been in touch with the
Office of Global Health and has received extensive materials and technical assistance
on all U.S. family planning statutory and policy requirements, including the Tiahrt
requirements which assisted the Mission in updating their training course on the Tiahrt
Amendment and making it more easily understood. Since 2004, more than 1,200 people
had been trained on the Tiahrt Amendment, the Mexico City Policy and other relevant
USAID regulations. During fiscal year 2006, 571 staff members of USAID/Bolivia’s
partners received training on the requirements of the Tiahrt Amendment and other
relevant USAID regulations. Moreover, the participants were required to sign a form
confirming that they have received a copy of the USAID Tiahrt regulations regarding the
use of USAID funds and that they will comply with such regulations.

Even though the Mission communicated the Tiahrt requirements to its partners, we
found that three of seven awards (see footnote 1) did not include the required Tiahrt
Amendment requirements. This problem is discussed in the following section.

Some Awards Need Amendments to Include the
Current Voluntary Population Activities Provision
Summary: Three of seven family planning implementing partners’ awards did not
include the Tiahrt requirements in their standard provisions. CIB-99-6, entitled
Voluntary Population Activities, and guidance from USAID’s Global Health Bureau
require that all awards include the Tiahrt requirements in the standard provision. The
omission of Tiahrt requirements in the awards was due to the fact that the AIDAR
clause (752.7016) had not been updated to include the new Tiahrt requirements and
Mission officials did not notice that the Tiahrt provisions were missing. Omission of the
Tiahrt requirements in these awards would make it difficult for USAID/Bolivia to
enforce these requirements should a violation be identified.

Although all eight partners had been informed of their responsibilities with regard to the
Tiahrt Amendment, not all the implementing partners’ awards included the required
standard provision including the Tiahrt requirements. The awards to the Manoff Group,
John Snow International and the Strategic Objective Agreement (SOAG) with the
Bolivian Government through PROSIN II included a Voluntary Population Activities
standard provision clause, but the clause did not contain the requirements of the Tiahrt
Amendment.

Contract Information Bulletin (CIB) 99-6, entitled Voluntary Family Planning – New
Provisions to Implement the Tiahrt Amendment, was issued by USAID on March 31,
1999 and mandated the replacement of the standard provision Family Planning and
Population Assistance Activities (August 1986). This CIB provided the new contract
clause and new standard provision on “Voluntary Population Activities” and incorporated
the new requirements for voluntary family planning projects. The CIB also stated that
the new provision must be included in its entirety in all new contracts, grants and
cooperative agreements involving any aspect of voluntary population activities. It also
provided amendment language that must be included in all existing contracts, grants, or
cooperative agreements.




                                                                                            8
The underlying cause for the omission of the required 1999 Tiahrt requirements in the
contracts, was that the AIDAR (752.7016) clause 2 had not been updated and the
responsible Mission staff including the Regional Legal Advisor did not notice the
omission. The AIDAR 752.7016 clause was not updated to include the new standard
provision even though it was approved in March 1999 and the section on the regulation
contains a cross-reference to CIB 99-6.

According to ADS 302.3.5, it is the Contracting Officer’s responsibility to enter into,
administer, and terminate USAID direct contracts in accordance with policy directives
and required procedures. Furthermore, the Mission received additional guidance on
monitoring compliance with family planning legislative requirements provided by the
Office of Global Health in September 2005. The guidance provided states that USAID
missions should include up-to-date versions of the standard provisions contained in CIB
99-6, in all appropriate agreements. It also stipulates that Regional Legal Advisors
should confirm that appropriate and correct versions of all clauses are included in all
relevant instruments.

Omission of the Tiahrt requirements in standard provisions in current and future family
planning and voluntary population activity awards would make it difficult for USAID to
enforce these requirements among its implementing partners should a violation be
discovered.

     Recommendation 1: We recommend that USAID/Bolivia review all awards that
     include any aspect of voluntary family planning for inclusion of the appropriate
     Tiahrt Amendment standard provision and amend as necessary.

     Recommendation 2: We recommend that USAID/Bolivia establish a plan to
     ensure that future awards include the Tiahrt requirements.

Evaluation of Management Comments – In response to Recommendation No. 1, the
Mission stated that two contracts have been amended and the SOAG modification has
been signed by the Government of Bolivia. These modifications include all the Tiahrt
requirements.

In response to Recommendation No. 2 (in the draft report, this recommendation was
combined with Recommendation No. 1), USAID/Bolivia stated that for future awards, the
Contract Office will verify the inclusion of the Tiahrt requirements as part of a standard
procedure for new awards and contracts where the Tiahrt requirements are mandatory.
The Mission will verify this for new SOAGs where the Tiahrt requirements are required
under Agency policy.

Based on the information provided by USAID/Bolivia, we consider that final action has
been taken on Recommendation Nos. 1 and 2.




2
    AIDAR 752.7016 is used as the standard USAID clause for Family Planning and Population
    Assistance Activities.



                                                                                        9
3. Has USAID/Bolivia, in response to the issues that arose in
Guatemala, implemented controls and procedures that improve
compliance?
USAID/Bolivia and its partners have not implemented sufficient controls and procedures
to ensure the Tiahrt Amendment compliance in response to the violations found in
Guatemala. However, USAID/Bolivia and its partners have established controls and
procedures to improve compliance with the Amendment. Nevertheless, we found that
additional improvements could be made to mission trip reports and checklists to address
Tiahrt compliance - a weakness found in Guatemala.

The Mission had provided training and guidance to its partners and had established a
good control environment to prevent violations of the Tiahrt Amendment. For example,
CIES and PROSALUD, USAID/Bolivia’s principal partners implementing family planning
activities, had developed their own training materials on the requirements of the Tiahrt
Amendment. Moreover, USAID/Bolivia required the staff of its partners to certify in
writing that they comply with the requirements of the Tiahrt Amendment.              At
PROSALUD, the Tiahrt provisions were an integral part of the doctors’ employment
contract.

Even though the Mission had established a strong control environment, we found that
ongoing monitoring for compliance with the Tiahrt Amendment needed improvement.
This issue is discussed below.

Monitoring of Tiahrt Compliance Needs Improvement

Summary: The Mission, though it has established a good control environment and
included compliance-related information in the standard monitoring report, needs to
strengthen its Tiahrt Amendment compliance-related monitoring procedures. The
Global Health office provides guidance to missions to ensure effective monitoring and
reporting on USAID compliance with the Tiahrt requirements. Weaknesses in the
Mission’s monitoring procedures were due to the fact that Mission officials were not
familiar with what we consider to be best practices for monitoring for compliance with
the Tiahrt Amendment. Unless the Mission establishes additional compliance-related
monitoring procedures, the Mission will be vulnerable to not discovering and reporting
on violations of the Tiahrt Amendment.

USAID/Bolivia’s monitoring activities provided general assurance of compliance even
though improvements could be made to ensure compliance with the requirements of the
Tiahrt Amendment. In September 2005, USAID’s Global Health office sent all missions’
Population, Health and Nutrition Officers information regarding its recently-established
mechanism for developing stronger performance monitoring and information systems
and effective monitoring and reporting on USAID compliance with U.S. policy and
legislation concerning family planning programs, including the requirements of the Tiahrt
Amendment. This mechanism is referred to as the Compliance Monitoring Unit and was
established as a clearinghouse/repository of information and resource materials that
Missions can access to support their own monitoring efforts. Some of the resources
accessible from the unit include monitoring checklists, monitoring plans, questionnaires,
interview guides, and other materials helpful for assessing adherence with the various


                                                                                      10
laws and policies. Additionally, in March 2006, USAID’s Global Health office in
Washington contacted a number of Latin America and Caribbean Missions to discuss
monitoring compliance with family planning legislative requirements. Included in the
information provided by the Global Health office was a list of questions for the Mission to
answer regarding its family planning programs. USAID/Bolivia included these questions
in its standard site visit trip report forms in an effort to continue to improve their Tiahrt
monitoring system. However, the Mission’s monitoring procedures can be significantly
improved by adding some additional compliance-related monitoring activities that can be
implemented by Cognizant Technical Officers during visits to family planning service
providers.

The Mission did not include the following compliance monitoring procedures in its regular
monitoring visits: 1) review any new medical staff contracts to ensure there are no bonus
payments, incentives, targets or quotas for a particular method of family planning,
including sterilization; 2) conduct random interviews with family planning users to ensure
they have/were given comprehensible information on the family planning method chosen
as well as to ensure that the patients/clients were not pressured to accept a particular
method of family planning by either the offer of an incentive or the denial of a benefit or
right; 3) observe counseling on family planning to identify any informed choice issues
and 4) conduct random reviews of sterilization patient consent forms to ensure timely
completion and assent. Furthermore, the standard monitoring procedures should
include the Mission’s reporting any non-compliance or suspected non-compliance, and
document compliance with the Tiahrt requirements in trip reports.

Weaknesses in the Mission’s monitoring procedures were not identified because Mission
personnel were not familiar with some elements of monitoring for compliance with the
Tiahrt Amendment such as reviewing contracts to verify that no partner's staff were
receiving any financial incentives tied to achieving targets.

Without additional compliance monitoring procedures in place, the Mission could be
susceptible to not discovering and reporting violations of the Tiahrt Amendment as
required by the statute. These additional procedures should assist the Mission staff in
detecting any violation, or possible violation, of the Tiahrt Amendment’s requirements.
By identifying early on any possible compliance issues concerning the Tiahrt
requirements, the Mission would be able to immediately investigate the issue and, if
required, apply corrective action to mitigate the impact of any non-compliance as quickly
as possible. This would also allow the Mission to quickly comply with the non-
compliance reporting requirement of the Tiahrt Amendment, if necessary.

During the course of the audit, the Mission agreed to include additional procedures in its
Tiahrt compliance monitoring system and provide these to the auditors for review prior to
the end of the audit field work. The Mission has prepared a monitoring schedule and
developed a new field visit report including additional procedures to review contracts.

   Recommendation 3: We recommend that USAID/Bolivia implement additional
   controls and procedures identified in this audit report to improve monitoring and
   compliance with the requirements of the Tiahrt Amendment.

Evaluation of Management Comments – In response to Recommendation No. 3 (this
recommendation was numbered as the second recommendation in the draft report), the
Mission provided documentary evidence (questionnaires, checklists, and schedules) that


                                                                                          11
it has established new compliance monitoring procedures and reporting formats to 1)
conduct random review of staff contracts of personnel providing family planning services
to ensure there are no bonus payments, incentives, targets or quotas for a particular
method of family planning, including sterilization; 2) conduct random interviews with
family planning users to ensure they have/were given comprehensible information on the
family planning method chosen as well as to ensure that the patients/clients were not
pressured to accept a particular method of family planning by either the offer of an
incentive or the denial of a benefit or right; and 3) observe counseling on family planning
to identify any informed choice issues. The standard monitoring procedures also include
procedures of what to do when issues or questions about compliance arise. The new
procedures will be implemented by the Cognizant Technical Officers (CTOs) during visits to
family planning service providers and incorporated into the trip reports, when visiting
outside La Paz service providers. In addition, the Mission has prepared a monitoring
schedule for FY07, and will prepare one on an annual basis for the following fiscal years.

Based on the information provided by USAID/Bolivia, we consider that final action has
been taken on Recommendation No. 3.

4. Has USAID/Bolivia implemented procedures to investigate,
remedy and report on violations?
During the course of the audit, USAID/Bolivia implemented additional procedures for
investigating, remedying and reporting violations of the requirements of the Tiahrt
Amendment. USAID/Bolivia reviewed and strengthened their procedures in an effort to
ensure the timely discovery of, and reporting on, any violations of the requirements of
the Tiahrt Amendment. These procedures included a detailed plan indicating staff
responsibilities for compliance monitoring and reporting as well as the flow of non-
compliance reporting through the Mission and to the appropriate USAID staff in
Washington.

We consider the actions taken by the Mission prior to the end of the audit fieldwork
regarding this matter as sufficient and we, therefore, are not making any audit
recommendation on this issue.




                                                                                        12
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General decided to carry out an audit to assess mission
compliance with the family planning-related requirements of the Tiahrt Amendment and
the new policies and procedures promulgated by USAID/Washington. To support this
effort, the Regional Inspector General/San Salvador performed this audit to determine
USAID/Bolivia’s effectiveness in complying with the requirements of the Tiahrt
Amendment. The Regional Inspector General/San Salvador conducted this audit in
accordance with generally accepted government auditing standards.

In performing the audit, we identified and assessed the Mission’s controls related to
ensuring compliance with the provisions of the Tiahrt Amendment. The management
controls identified included performance monitoring plans, the Mission’s Annual Report,
the Mission’s annual self-assessment of management controls as required by Federal
Managers Financial Integrity Act, field visits conducted by Cognizant Technical Officers,
progress reports, and day-to-day communications between the partners and
USAID/Bolivia personnel.

The audit was conducted at the offices of USAID/Bolivia, the offices of the Mission’s
implementers, and at the Ministry of Health (MOH) and partner-managed health facilities
throughout the country from September 6 to October 18, 2006. The audit covered the
period from October 1, 2005 through September 30, 2006.

We judgmentally selected sites to visit to ensure a representative mix of partner sites
and urban and rural communities throughout Bolivia. In total, we visited 36 health
facilities in five of Bolivia’s nine regions as shown in the table below.

Table 1: Sampled Sites

                   USAID Partner                     Universe           Sample
 CIES urban clinics                                         9                        6
 CIES rural projects (mobile unit)                          7                        1
 PROSALUD                                                  27                        5
 PROCOSI                                                   30                        2
 SOCIOS                                                     6                        2
 Ministry of Health assisted facilities                   903                       20
 Total                                                    982                       36

We visited a higher percentage of CIES and PROSALUD facilities than other partners’
sites because only CIES and PROSALUD are implementers of family planning service
delivery projects. The Manoff Group is not included in Table Nos. 1 or 2 because this
partner provided technical assistance to PROCOSI in project management but did not
provide support to health sites. The following table lists the project sites visited and
includes information on the region, the concerned implementer, and the number of
interviews conducted.




                                                                                      13
                                                                                    APPENDIX I


Table 2: Health Facilities Visited and Interviews Conducted

                                                                                     Interviews
                                                                       Interviews
                                                                                        with
                                                                          with
   Region            Partner                Site/Facility                              Family
                                                                         Medical
                                                                                      Planning
                                                                          Staff
                                                                                       Clients
                                Hospital Materno Infantil German
 Cochabamba   Engender Health   Urquidi                                    3             0
              PROSALUD          PROSALUD Referral Hospital                 2             7
              CIES              CIES urban clinic                          1             3
                                Shinaota & Mariposas MOH health
              PROSIN/JSI        centers                                    3             0
              SOCIOS/PROCOSI    PROMUJER, a sub partner                    1             0


 Santa Cruz   Engender Health   Hospital Maternidad Percy Boland           2             7
                                Center La Madre and referral
              PROSALUD          hospital                                   5            16
              CIES              CIES urban clinic                          2             9
                                Villa Paraiso and Paillon MOH
                                health centers, Monterico MOH
                                health post and Hospital San
              Engender Health   Ramon                                      2             0
              PROCOSI           CSRA an NGO, sub partner                   1             0


 Chuquisaca   Engender Health   Hospital Gineco-Obstetrico Sucre           1            10
                                CIES urban clinic of Sucre and
              CIES              CIES rural project, Padilla                3             9
                                Hospital Tarabuco, Chuqui Chuqui,
                                El Chaco, and Potolo MOH
                                assisted health centers; and,
                                Surima, La Palma, Imilla Huanusca
              PROSIN/EH/JSI     MOH assisted health posts                  8             6
              SOCIOS            CEDERTA and Esperanza Bolivia              2             0


 Potosi       Engender Health   Hospital Daniel Bracamonte                 1             4
              CIES              CIES urban clinic                          2             5
                                Tiquipaya and Porco MOH health
              PROSIN/EH/JSI     centers                                    4             0


 La Paz       Engender Health   Hospital de la Mujer, La Paz               3            14
                                PROSALUD referral Hospital El
              PROSALUD          Alto, and Villa Fatima health center       7             3
              CIES              El Alto Clinic                             2             6
              CIES              La Paz Clinic                              1             7
                                                 TOTAL                    56            106


During the period covered by our audit, October 1, 2005 through September 30, 2006,
USAID/Bolivia obligated $15.4 million for its family planning implementing partners
including $6.5 million for population-related activities (including funds expended under




                                                                                                  14
                                                                               APPENDIX I


Global Field Support). The amount expended in Bolivia totaled $11.3 million. In addition,
USAID donated $430,980 in contraceptives commodities.

Methodology
The overall vision for answering the audit objective is to address the following four
detailed questions:

1. Has USAID or its partners violated the Amendment?

2. Has USAID communicated the Amendment’s requirements to its family planning
   partners?

3. Has USAID, in response to the problems that arose in Guatemala, implemented
   controls and procedures to improve compliance?

4. Has USAID implemented procedures to investigate, remedy and report violations?

The answer to the audit objective will be deemed to be positive if audit fieldwork
provided answers to these questions have favorable outcomes (are positive). The
answers to the questions will be deemed to be positive, if the auditors find,

   •   no violations to the amendment were detected;
   •   amendment requirements have been communicated to the mission and partners;
   •   controls and procedures have been implemented to address weakness found in
       Guatemala; and,
   •   reporting procedures have been implemented.

To fulfill the audit’s objective, we visited 36 health care facilities, interviewed 56 medical
staff providing family planning services, and interviewed 106 family planning clients. We
conducted interviews with USAID/Bolivia officials and USAID/Bolivia’s partners. We also
reviewed documentation produced by USAID/Bolivia, its partners and by health facilities.
The audit team developed separate interview questionnaires for service providers and
clients to ensure consistency in the subjects covered during the field visits. The
questionnaires were designed to determine if the requirements of the Tiahrt Amendment
were violated including if decisions made by clients were voluntary, and also if clients
gave their informed consent prior to undergoing a sterilization procedure as required by
USAID Policy Determination 3. We also verified if USAID/Bolivia’s partners and their
service providers had received training and guidance on the provisions of the Tiahrt
Amendment.

We interviewed all current family planning patients that were present at the clinics at the
time of our visits. We approached patients after they had received a counseling session
as they were waiting to receive health services or as they were leaving a facility.

In order to test aspects of the Mission’s monitoring system we interviewed Mission
Cognizant Technical Officers and other responsible officials and reviewed
documentation produced by USAID/Bolivia. The documentation we reviewed included
the Mission’s training folders and files maintained by the Cognizant Technical Officers.




                                                                                           15
                                                                             APPENDIX I


With regard to USAID/Bolivia’s partners, we reviewed partners’ agreements, contracts,
documents, work plans, and progress reports as well as their reports on family planning
activities. We reviewed the employment and service contracts of 38 partners' staff
members to determine if bonuses had been paid for the achievement of family planning-
related targets. We also reviewed all 25 consent forms of current sterilization recipients
and a random sample of 228 consent forms associated with 1,549 sterilization recipients
at the health facilities visited in order to verify that the consent form had been completed
and signed by the recipient. We also conducted interviews with the accounting firms
responsible for the financial audits of USAID local partners (CIES, PROSALUD,
PROCOSI and PROSIN II) to determine if the auditors were familiar with the Voluntary
Population Activities standard provision and verified compliance with these
requirements. We also reviewed prior audit reports to verify that there was no
compliance finding related to the Tiahrt Amendment.

In assessing compliance with Tiahrt provisions, we considered that a single violation
would be considered to be significant and reportable.




                                                                                         16
                                                                               APPENDIX II



MANAGEMENT COMMENTS
DATE:          December 4, 2006

REPLY TO: Michael Yates, Mission Director, USAID/Bolivia

TO:            Timothy E. Cox, RIG/San Salvador

SUBJECT:       USAID/Bolivia’s response to the draft report on audit of
               USAID/Bolivia’s Effectiveness in Complying with the Tiahrt
               Requirements (Report No. 1-511-07-0XX-P)



Under cover of this memorandum we are transmitting our response to the subject draft
audit report, as requested in your memo of November 13, 2006. We have responded to
the findings of the report and both of the recommendations. Please consider the
information provided in order to address the closure of the recommendations. We are
providing, as requested, a signed and unsigned electronic copy of this memorandum.

USAID/Bolivia once again thanks the RIG Audit team for its thoughtful audit of the
Mission’s compliance with the Tiahrt requirements and express our appreciating for the
extensive RIG field work, which permitted the audit to conclude that USAID/Bolivia and
its implementing partners complied with the Tiahrt Amendment, that service providers
had placed a strong emphasis on voluntarism, and that the Mission had established a
strong control environment. The audit team’s observations and suggestions will assist
the Mission in the proper management of our programs.

After careful review of the RIG draft audit report, the Mission agrees with the two audit
recommendations. The Mission has implemented different actions suggested by the audit
in order to strengthen internal management and controls for these important issues and for
the closure of the recommendations. These actions are fully described in detail below.

Recommendation No. 1 [now Recommendation Nos. 1 and 2]:

We recommend that USAID/Bolivia review all awards that include any aspect of
voluntary family planning for inclusion of the appropriate Tiahrt Amendment standard
provision and amend as necessary and establish a plan to ensure that future awards
include the Tiahrt requirements.

Closure request:

As noted in the draft audit report, the John Snow International and the Manoff Group
contracts and the bilateral Strategic Agreement (SOAG) included the Voluntary Population
Activities standard provision, but the provision did not contain the requirements of the Tiahrt
amendment. As of November 30, the two contracts have been amended and the SOAG
modification is being sent to the GOB for countersignature. These modifications include all




                                                                                            17
                                                                               APPENDIX II


the Tiahrt requirements. Enclosed please find the modifications as Annex 1, 2 and 3,
respectively.

In future awards, the Contract Office will verify the inclusion of the Tiahrt requirements as
part of a standard procedure for new awards and contracts where the Tiahrt requirements
are mandatory. SOS will verify this for new SOAGs where the Tiahrt requirements are
required under Agency policy.

On this basis, we kindly request that the recommendation be closed upon issuance of the
final audit report.

Recommendation 2 [Now Recommendation 3]:

We recommend that USAID/Bolivia implement additional controls and procedures to
improve monitoring and compliance with the requirements of the Tiahrt Amendment.

Closure request:

Mission monitoring procedures have been improved by developing revised reporting
formats for field visits. These formats incorporate the Tiahrt-related compliance
monitoring activities recommended by the draft audit report. As noted below, the
Mission requests that audit findings related to Policy Determination 3 be included within
the findings of the Mission’s Family Planning Program Audit. The revised reporting
formats are: 1) conduct random review of staff contracts of personnel providing family
planning services to ensure there are no bonus payments, incentives, targets or quotas
for a particular method of family planning, including sterilization; 2) conduct random
interviews with family planning users to ensure they have/were given comprehensible
information on the family planning method chosen as well as to ensure that the
patients/clients were not pressured to accept a particular method of family planning by
either the offer of an incentive or the denial of a benefit or right; and 3) observe
counseling on family planning to identify any informed choice issues. The standard
monitoring procedures also include procedures of what to do when issues or questions
about compliance arise.

The new procedures will be implemented by the Cognizant Technical Officers (CTOs)
during visits to family planning service providers and incorporated into the trip reports, when
visiting outside La Paz service providers.

The Mission has prepared a monitoring schedule for FY07, and will prepare one on an
annual basis for the following fiscal years.

With the new compliance monitoring procedures in place, the Mission considers it has
proper procedures for discovering and reporting violations of the Tiahrt Amendment as
required by the statute. The new procedures are enclosed as Annex 4, 5, 6, and 7.

On that basis, we kindly request that the recommendation be closed upon issuance of the
final audit report.

The Mission also provides comments on the following specific aspects of the audit report:




                                                                                            18
                                                                               APPENDIX II


Policies and Procedures Promulgated by Washington

The opening paragraph of the Audit Objectives states, “. . . the Office of Inspector General
decided to carry out an audit to assess mission compliance with the family planning-related
requirements of the Tiahrt Amendment and the new policies and procedures promulgated
by USAID/Washington”. The Mission has discussed the matter with USAID/Washington,
which indicated that although it continues to provide guidance and support on family
planning requirements to all missions, it has not formally promulgated any new policies and
procedures that missions are required to follow. For that reason, please enumerate the
policies and procedures referred to in the final report.

Informed Consent for Sterilization and Policy Determination 3

Within the audit findings, information is included on the audit methodology of reviewing
signed consent forms for sterilization patients. You also note that the Mission did not
conduct random reviews of sterilization patient consent forms within its monitoring
procedures in its regular monitoring visits. While the Mission recognizes the importance of
including this as part of its monitoring activities, we note that the requirement to obtain
written consent forms for voluntary sterilization patients is a requirement of Policy
Determination 3 and not a requirement of the Tiahrt Amendment. We suggest that these
findings be included within the findings of the Mission’s Family Planning Program Audit
rather than within the findings of the Tiahrt audit.

Formal Family Planning Requirements Training from USAID/Washington

We would like to clarify that USAID/Bolivia did receive formal training on the U.S.G. family
planning statutory and policy requirements, including the Tiahrt Amendment, from
USAID/Washington representatives in the last two years. Mission representatives attended
a Latin America and Caribbean regional training in March 2005 conducted by the Senior
Policy Advisor from the Office of Population and Reproductive Health and an Assistant
General Counsel from the Office of the General Counsel.

Monitoring of Tiahrt Compliance

Within the Audit Findings section of the report, a Summary Box on Monitoring of Tiahrt
Compliance notes that the Mission was not familiar with, “. . . some of the required
elements of monitoring for compliance with the Tiahrt Amendment.” The Mission has
discussed the matter with USAID/Washington, which indicated that there are no required
elements of monitoring. USAID/Washington indicated that it provides guidance on
suggested monitoring activities, noting that each Mission’s family planning program is
different and ultimately, each Mission is in the best position to determine its family planning
program compliance activities. Thus, you may wish to rephrase this finding on the
weaknesses of the Mission’s monitoring procedures.




                                                                                            19
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
            www.usaid.gov/oig
